<html>
<title> - HEALTHY PLANETS, HEALTHY PEOPLE: GLOBAL WARMING AND PUBLIC HEALTH</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





    HEALTHY PLANET, HEALTHY PEOPLE: GLOBAL WARMING AND PUBLIC HEALTH

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2008

                               __________

                           Serial No. 110-32



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
61-639                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard A. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................     1
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     3
    Prepared statement...........................................     5
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, prepared statement..............     8
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    11
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................    12

                               Witnesses

Dr. Howard Frumkin, Director, National Center, Environmental 
  Health Center for Disease Control..............................    14
    Prepared testimony...........................................    17
Dr. Jonathan Patz, Professor and Director, Global Environmental 
  Health, University of Wisconsin at Madison.....................    33
    Prepared testimony...........................................    35
    Answers to submitted questions...............................   147
Dr. Georges Benjamin, Executive Director, American Public Health 
  Association....................................................    42
    Prepared testimony...........................................    80
    Answers to submitted questions...............................   150
Dr. Dana Best, American Academy of Pediatrics....................    89
    Prepared testimony...........................................    92
    Answers to submitted questions...............................   152
Mr. Mark Jacobson, Director Atmosphere Energy Program, Professor 
  Environmental Engineering, Stanford University.................   107
    Prepared testimony and supplemental materials................   110
    Answers to submitted questions...............................   157

                          Submitted Materials

Frumkin, et al report entitled ``Climate Change: The Public 
  Health Response'' from American Journal of Public Health in 
  March 2008 (Vol. 98 No. 3).....................................    68
American Public Health Association white paper on ``Climate 
  Change: Our Health in the Balance'' from April 2008............    45
American Public Health Association blueprint document entitled 
  ``Climate Change Is a Public Health Issue''....................    66
American Academy of Pediatrics policy statement entitled 
  ``Climate Change and Children's Health'' from November 2007....   103
American Academy of Pediatrics technical report entitled 
  ``Climate Change and Children's Health'' from November 2007....   165
Patz et al report on Climate Change 2007: Impacts, Adaptation and 
  Vulnerability. Contribution of Working Group II to the Fourth 
  Assessment Report of the Intergovernmental Panel on Climate 
  Change.........................................................   174

 
   HEALTHY PLANETS, HEALTHY PEOPLE: GLOBAL WARMING AND PUBLIC HEALTH

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
B-318, Rayburn House Office Building, Hon. Hilda Solis 
presiding.
    Present: Representatives Solis, Blumenauer, Inslee, 
Cleaver, McNerney, and Walden.
    Staff present: Ana Unruh-Cohen and Stephanie Herring.
    Ms. Solis [presiding]. Good morning. I would like to call 
the Select Committee on Energy Independence and Global Warming 
to order, and wanted to let our witnesses and everyone know 
that we are having some difficulty with timekeeping because 
these clocks are not working appropriately, but we will give 
you an indication when you begin to speak what the timing will 
be. I think most of you know what that procedure is like.
    Unfortunately, this morning Chairman Markey is not able to 
be with us; he had a--wrinkle. He is getting it taken care of. 
And I don't mean it facially or figuratively speaking; he broke 
his wrist, so we hope that he will have a speedy recovery and 
come back to us very soon.
    But I am very delighted that this particular hearing is 
going to focus on healthy planet, healthy people, global 
warming, and public health, something that some of us here on 
the committee have been talking about for some time. And it 
just happens that this week is both National Public Health Week 
and World Health Day, and so we are focusing on the impact of 
climate change that will have on our communities and the health 
and well-being of our communities. Today's hearing is an 
opportunity to address this important relationship.
    The World Health Organization reported that the effects of 
climate change may have caused over 150,000 deaths in the year 
2000, and predicts that these impacts are likely to increase in 
the future. According to the IPCC, the United States will be 
challenged by increased heat waves, air pollution, forest fires 
during the course of the century, with potential risks for 
adverse health impacts such as heat stress, increases in 
asthma, allergies, chronic and obstructive pulmonary disease.
    Last October, the director of the United States Center for 
Disease Control and Prevention, Dr. Julie Gerberding, testified 
that climate change is anticipated to have a broad range of 
impacts on the health of Americans and the nation's public 
health infrastructure. The World Health Organization found that 
the negative public health impacts of climate change will 
disproportionately impact communities that are already 
vulnerable.
    Children, the elderly, poor, and communities of color, as 
we know, are most vulnerable to the negative health impacts of 
climate change. More than 50 percent of 30 million people in 
the U.S. are impoverished and they currently live in urban 
areas; the majority of these communities are of color. And a 
recent report issued by the IPCC noted that these communities 
will have less capacity to deal with effects of climate change.
    Many of those communities are already suffering cumulative 
exposure. For example, 5.5 million Latinos and 68 percent of 
all African-Americans live within the range where health 
impacts from power plants are the most severe, and more than 70 
percent of African-Americans and Latinos live in counties that 
violate federal air pollution standards.
    The EPA first recognized the possible impacts of climate 
change on public health over a decade ago, and in 1997, EPA's 
publication, titled ``Climate Change and Public Health,'' the 
EPA wrote that, ``as climate changes, natural systems will be 
destabilized, which could pose a number of risks to human 
health.'' And in 2001, the EPA sponsored a report for the 
Global Change Research Program entitled, ``Climate Change and 
Human Health: The Potential Consequences of Climate Variability 
and Change.'' The report stated that the assessment makes clear 
that the potential health impacts are diverse and demand 
improved health infrastructure and enhanced targeted research.
    As policymakers, we have a moral imperative to make sure 
that policy and regulations protect our most vulnerable 
population. Unfortunately, the health and welfare of minority 
and low-income communities continues to be put at risk by the 
administration's failure to develop and implement and enforce 
environmental regulations, including the regulation of 
greenhouse gases public health; it is unnecessarily risking 
public health. Hurricane Katrina demonstrated to the world the 
direct effect that climate change is having on the health of 
our most vulnerable populations. These outcomes, as we know, 
will worsen unless there is action taken.
    Before we begin, I would also like to say that I am 
disappointed that we did not receive testimony from the 
administration prior to the start of this hearing. The failure 
of the administration to come to agreement on the CDC testimony 
is not only in violation of committee rules and courtesy, it is 
also a great disservice to my colleagues on this committee who 
deserve the opportunity to know in advance what a witness' 
position is, and in this case the administration's position.
    Frankly, this is yet another indication of the role of 
politics that is playing in science, and I hope in this case 
that the testimony reflects the science and not the politics. 
The administration must recognize our role in preventing 
impacts of climate change on vulnerable communities, including 
the need to improve health status and health equity, the 
inclusion of health policy in the development of climate 
response, and the need to prevent injustices such as those that 
resulted in Hurricane Katrina.
    I look forward to hearing from all of our witnesses today, 
and I really want to thank our chairman, Ed Markey, for 
agreeing to have this very important hearing. He has been a 
longtime advocate in this area, and finally we see the day now 
where these issues that we have been talking about have come to 
the forefront.
    So I will yield back the balance of my time, and I will 
recognize Congressman Blumenauer, from Oregon, for 2 minutes.
    Mr. Blumenauer. Thank you, Madam Chair. Well, actually I 
may--since it is a little more relaxed, I may take a couple 
more, in part because, as you, I am in three places at once 
right now, for which I apologize, but we have got some ways and 
means stuff going forward. We are missing a caucus and I don't 
even know where else I was supposed to be, but I wanted to be 
here to express my appreciation to the committee and staff for 
bringing us together and for the witnesses to join us.
    Not everybody is here. We have had a chance, however, to 
review some of the testimony that did get to us, and we will--
the record that is being built, I think, is very, very 
important to be able to shape and inform what we are going to 
be doing with climate change. And being able to focus on the 
human health aspect here, I think, is perhaps the most 
important and under-appreciated area.
    Last week we had our state epidemiologist, Mel Kohn, give a 
presentation in Portland, where he outlined the public health 
issues that he is dealing with from climate change, from heat 
waves to vector-borne disease, asthma, allergy, air pollution, 
chronic--it was a pretty scary litany of items that they are 
considering with, from changes to physical activity to food 
insecurity, mental health. We need to be able to get the big 
picture together to be able to move forward on this.
    One particular area that I am hopeful that the witnesses 
can help us focus on and supplement the record, dealing with 
the problem of waterborne disease in particular. And this is an 
area that is an international initiative; it is something we 
have been working on with my associate, Ms. Benner, since the 
Johannesburg World Sustainable Development in 2002. We have got 
the Water for the Poor legislation, but it is not being funded.
    And candidly, the administration, as yet, has not even 
assembled the plan that was called for under that legislation. 
And this is only going to be compounded if global warming 
continues: an average global temperatures increase by just one 
degree, we are talking about a third of a billion cases of 
waterborne illness. Hundreds of thousands of people, 
potentially, that would be dying.
    There are opportunities with our assessment of global 
warming to actually deal--to fight climate change, to actually 
improve human health. We have got some legislation, Dr. 
Frumkin, dealing with recycling, and land-use, and 
transportation, that actually not only addresses climate 
change, but actually has the potential of helping the human 
physical activity and condition. We will be moving forward with 
that.
    One aspect I didn't see, at least as we were reviewing last 
night the testimony that had been submitted, dealt with climate 
change's impact on reduced biodiversity and missed 
opportunities for medical advancements, and I don't know if 
that is going to find its way into the record now or later. The 
testimony had that iconic picture of the polar bear. And some 
people are dismissing, you know, one more species, more or 
less, but just thinking about the amazing capacity of the polar 
bear to fast for 150 days, maintain a relatively normal body 
temperature, maintain bone mass, give birth, I mean, just 
basically stop the other processes--the impact that could have 
for long-term human health is something that I am hopeful we 
can get some help from you and others.
    I am going to stick around for as long as I can; I hope to 
get back. I appreciate your leading us through this and look 
forward to hearing our witnesses.
    [The prepared statement of Mr. Blumenauer follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Great. Thank you very much, Mr. Blumenauer.
    I also would like, at this time, to ask for unanimous 
consent to insert Ed Markey, our chairman, his statement into 
the record. If there is no objection, then we will do that.
    [The statement of Chairman Markey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Next I would like to recognize the distinguished 
member from California, Mr. McNerney, for an opening statement. 
Feel free to take more than 2 minutes if you would like, but 
keep it----
    Mr. McNerney. Great. Well, I typically am a brief speaker, 
so I will, probably. Thank you, Madam Chairwoman, and this is a 
really important part of the question on the issue of global 
warming, is the health effects. We know there is going to be 
flooding effects and so on, but the sort of secondary effects, 
I think, are going to be actually more important in terms of 
the effect on our people.
    We have to adapt and mitigate; we all know that. But there 
is going to be things like problem plants growing that cause 
more allergies, more asthma, there will probably be an increase 
of ozone. The warmer temperatures--and I am sure we will hear 
about this from the experts--they will be increasing the rodent 
population, the insect population, which are vectors for 
diseases that we probably haven't seen in our society for a 
long, long time.
    There will be droughts and floods, which have health 
impacts. There will be loss of habitat, which Mr. Blumenauer 
referred to a minute ago. We will lose tropical rainforests; we 
will lose costal areas.
    So we have a whole range of impacts that are going to be 
coming down the pipe from global warming. It is important for 
us right now to understand what those impacts are so that we 
can begin to plan, we can begin to mitigate, and we can begin 
to use that as an issue to further the public's awareness and 
willingness to go along with steps that we are going to be 
needing to take to fight these coming issues.
    And one thing I always like to say is that if we make the 
right decisions here, we are not only going to be adapting and 
mitigating, but we are going to be creating opportunities. We 
are going to be creating a cooperation worldwide, so I think of 
it as a great opportunity as well as a threat.
    So what I want to do is listen to your testimony--hopefully 
I will be able to stay through most of it--and we will move 
forward with good legislation as a result.
    So thank you, Madam Chairwoman.
    Ms. Solis. Thank you. I thank the gentleman from 
California.
    [The prepared statement of Ms. Blackburn follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Just for the sake of clarity here, each panelist will have 
a chance to give an opening statement for 5 minutes, and then 
from there we will go to question and answer. And I apologize 
if we don't have all of our members here; we do have a series 
of other committee meetings and caucuses that are going on.
    So our first witness, I would like to thank Dr. Frumkin for 
coming here. Just a brief introduction: Dr. Howard Frumkin 
serves as the director of the National Center for Environmental 
Health and the Agency for Toxic Substances and Disease 
Registry. He received his M.D. from the University of 
Pennsylvania and his master's and doctorate in public health 
from Harvard.
    Before joining the CDC in September 2005, he was professor 
and chair of the Department of Environmental and Occupational 
Health at Emory University, Rollins School of Public Health. He 
previously served as a member of EPA's Children's Health 
Protection Advisory Committee, where he chaired the Smart 
Growth and Climate Change workgroup.
    He currently serves on the Institute of Medicine roundtable 
on environmental health services, research, and medicine. He is 
the lead author on ``Climate Change: The Public Health 
Response,'' which was published in the American Journal of 
Public Health. This document outlines the CDC's strategy to 
address climate change impacts on public health in the United 
States.
    Dr. Frumkin, welcome, and thank you, and you may begin.

 STATEMENTS OF DR. HOWARD FRUMKIN, DIRECTOR, NATIONAL CENTER, 
 ENVIRONMENTAL HEALTH CENTER FOR DISEASE CONTROL; DR. JONATHAN 
  PATZ, PROFESSOR AND DIRECTOR, GLOBAL ENVIRONMENTAL HEALTH, 
   UNIVERSITY OF WISCONSIN AT MADISON; DR. GEORGES BENJAMIN, 
  EXECUTIVE DIRECTOR, AMERICAN PUBLIC HEALTH ASSOCIATION; DR. 
 DANA BEST, AMERICAN ACADEMY OF PEDIATRICS; MR. MARK JACOBSON, 
  DIRECTOR ATMOSPHERE ENERGY PROGRAM, PROFESSOR ENVIRONMENTAL 
                ENGINEERING, STANFORD UNIVERSITY

                  STATEMENT OF HOWARD FRUMKIN

    Dr. Frumkin. Thank you very much, Madam Chair and other 
distinguished members of the committee. I am grateful to you 
for taking up this very important subject.
    As you said, I am Howard Frumkin, director of the National 
Center for Environmental Health and the Agency for Toxic 
Substances and Disease Registry at the Centers for Disease 
Control and Prevention. I am here to speak on our emerging 
understanding of climate change and its potential impact on 
health, and to discuss steps we are taking, as public health 
officials, regarding these potential consequences.
    I recognize that this topic remains controversial, and some 
of my testimony may not necessarily reflect broad consensus 
across the administration. In addition, CDC is not a regulatory 
agency and does not express any opinions on regulatory 
decisions pending before the Environmental Protection Agency.
    I would like to make three simple points. First, climate 
change is very much a public health concern. Some of the 
components of that point were very well elucidated by members 
in their opening statements. Potential health impacts include 
heat waves, respiratory disease exacerbations, severe weather 
events, infectious disease risks, and others. For some of 
those, the science base is very well delineated; for others we 
have a lot to learn.
    Collectively, that science base is very well described in 
documents of the intergovernmental panel on climate change, in 
the U.S. climate change science program, and I won't go into 
those in any more detail now. The bottom line is that climate 
change is a very serious public health concern.
    As the chair has pointed out on many occasions, it is 
particularly a concern that affects some of us more than 
others. Public health is very committed to addressing health 
disparities, and that commitment very much has to be a part of 
our steps to address climate change as well.
    The second point is that we need public health action to 
address the potential health consequences of climate change. 
Fortunately, the tools of public health--the tools in our 
toolbox--are very well-suited to addressing climate change.
    Core functions of public health include surveillance and 
tracking; collecting data on environmental risk factors and on 
health outcomes; outbreak investigations, so that we better 
understand emerging or reemerging diseases that may be related 
to climate change; preparedness planning, such as heat wave 
preparedness plans, so that officials at the local level can 
better protect their populations from some of the consequences 
of climate change; research, because we need to understand much 
better the health implications of climate change.
    Communication is a core function of public health that is 
especially important because this is a broad and complex topic 
that the public needs to understand well, including its health 
consequences; we in public health have considerable experience 
at communicating complex health-related topics to the public. 
All of these and others are core public health functions, and 
they can very, very readily be deployed as we address climate 
change.
    With the permission of the chair, I would like to submit 
for the record an article entitled, ``Climate Change: The 
Public Health Response,'' that makes these points in 
considerably more detail.
    My third point is that CDC has a strong foundation for the 
work that we need to do going forward. We have ongoing 
activity, and have for a long time, in such functions as 
Vector-borne disease surveillance, heat wave epidemiology, 
strong working relationships with state and local health 
departments, preparedness planning, health communication. These 
are activities that are well-established at the CDC and form a 
strong foundation for moving forward as we address climate 
change.
    In closing, let me offer a good news aspect of the 
challenge that we face. As has been mentioned in the opening 
statements, many of the steps we need to take to address 
climate change offer a range of co-benefits that will benefit 
public health as well as environmental and other areas in 
diverse ways. For example, if people walk and bicycle more, not 
only is that part of the climate change response, but it helps 
to promote physical activity, it helps us achieve clean air, it 
helps reduce the risk of car crashes, thereby offering a broad 
range of health benefits.
    We think there are many opportunities to benefit health in 
diverse ways as we address climate change. Part of our job at 
the CDC, and in public health more generally, is to document 
the science base for those co-benefits to bring them to the 
attention of the public and policymakers, so that together we 
can protect health as well as we possibly can as we move 
forward in addressing climate change.
    Thank you, again, for your interest in this subject and 
your commitment. I am pleased to answer any questions.
    [The statement of Dr. Frumkin follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Thank you very much.
    Our next speaker is Dr. Jonathan Patz. Dr. Jonathan Patz is 
a professor and director of global environmental health at the 
University of Wisconsin in Madison. He co-chaired the health 
expert panel of the United States National Assessment on 
Climate Change, and was a convening lead author of the United 
Nations and World Bank Millennium Ecosystem Assessment. For the 
past 14 years, he has been a lead author for the United Nations 
intergovernmental panel on climate change and shared the 2007 
Nobel Peace Prize.
    Dr. Patz is president of the International Association for 
Ecology and Health, and has written over 75 peer-reviewed 
papers and a textbook addressing the health effects of global 
environmental change. He has served on several scientific 
committees of the National Academy of Sciences, and currently 
serves on the science advisory board of both the CDC and EPA. 
At the EPA he also serves on a committee investigating the 
health impacts of climate change on children.
    Welcome, Dr. Patz, and congratulations.

                   STATEMENT OF JONATHAN PATZ

    Dr. Patz. Thank you. And it is really an honor. I want to 
thank you for allowing me to present to this committee, and for 
a topic that I have worked on for about 15 years. As you 
mentioned, I did serve as co-chair for the U.S. National 
Assessment on Climate Change health expert panel and on the 
IPCC, and from your introductory comments it is quite clear 
that you understand that public health really is a core impact 
area of climate change, and that, in my view as a public health 
scientist, the health effects of climate change could be really 
one of the greatest challenges that we face in this century.
    The reason is that climate change is a unique and different 
type of health risk compared to others that we have dealt with 
in the past. We are used to dealing with single agents of 
disease, and trying to find a cure or a vaccine to toxic 
chemicals and trying to figure out ways to reduce exposure. But 
climate change can potentially affect our health through 
multiple pathways.
    Certainly we know about direct effects from heat waves, 
when more than 700 people died in the 1995 Chicago heat wave. 
And a new paper out just this year puts the number, as far as 
the European heat wave of 2003, up at approximately 70,000 
people dying in less than a 2-week period. So we know that heat 
waves kill people. And the projections from the climatologists 
are that we are going to be having more frequent and more 
extreme heat waves.
    We have, in our sense, or our preliminary findings, at 
least for Wisconsin, showing that there will be a 
disproportionate increase in extreme heat waves compared to a 
decline in cold snaps. So we are worried about this.
    Dr. Jacobson will go further into detail looking at air 
pollution effects of climate change. I will just point out that 
accompanying heat waves are often stagnant air masses that 
exacerbate air pollutions, and according to the IPCC citing 
climate studies, there may be an increase in stagnant air 
masses, at least for the eastern United States.
    One study that I want to point out that took a look at the 
relationship between climate and ozone air pollution--that is 
the ground-level photochemical smog pollution--finds that in 
the eastern United States, red ozone alert days, which are 
dangerous for asthmatics and other people with respiratory 
problems, that could increase by 68 percent. So warmer 
temperatures drive that chemical reaction that forms ground-
level ozone smog pollution, and Dr. Jacobson will cover that 
further.
    Another air pollution issue is pollen. And ragweed pollen, 
according to one study, will increase by 50 percent under 
conditions of doubled CO<INF>2</INF>. So the issue of both 
ozone and allergens could be a problem as far as air quality.
    And Representative Blumenauer brought up the concern about 
water. Our group actually studied the--all waterborne disease 
outbreaks reported in the United States between the years 1948 
and 1994, and we found that the majority--actually, about 60--
well, two-thirds, two-thirds--67 percent of reported waterborne 
disease outbreaks were preceded by extremely heavy rainfall 
months.
    So we see this issue of extremes of the hydrologic cycle--
the water cycle--that climatologists tell us it is not just 
global warming, it is climate change. It is extremes, you know, 
more droughts and more flooding, that actually could present a 
challenge to our already challenged water quality. And in 
municipalities with rusting pipes and water systems, this could 
be an added pressure.
    So, can we adapt to these challenges? As Dr. Frumkin said, 
we do have many--we have means to adapt to many of these 
issues.
    However, I would argue that we need a multi-pronged 
approach that includes both preparedness and more upstream 
greenhouse gas mitigation. We do need to address specific 
issues of heat waves, air quality, water quality problems, but 
not lose sight of the root problem that is driving this, and 
that is climate change caused by greenhouse gas emissions.
    In approaching climate change, we must also look at this 
not in isolation of other environmental problems that could act 
in synergy with climate change. For example, a heat wave over a 
sprawling urban environment with lots of heat-retaining 
surfaces, the urban heat island effect. Or when a hurricane 
hits a city like New Orleans, and the fact that the coastal 
wetlands have been degraded makes that area much more 
vulnerable to a climate event. So we need to look at climate 
change with other issues.
    Finally, as Dr. Frumkin mentioned, there are great 
opportunities--co-benefits--if we reduce fossil fuel burning, 
and change our transportation system, and promote exercise, 
that is a great thing. And in this regard, I feel that energy 
policy becomes one and the same as public health policy.
    And currently there is very little funding to look at these 
issues of health, especially the CDC and NIH. There is no 
funding to protect the American public, and that needs to 
change.
    [The statement of Dr. Patz follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Thank you very much. Sorry our time is short, 
but we will get back with you when we ask our questions.
    Our next speaker is Dr. Georges Benjamin. Dr. Georges 
Benjamin has been the executive director for the American 
Public Health Association, the nation's oldest and largest 
organization of public health professionals, since 2002. This 
year, the APHA has dedicated National Public Health Week to 
climate change impacts on health in America.
    I am proud to have worked with APHA and Chairman Markey to 
introduce a resolution recognizing this week. We currently have 
104 cosponsors on the resolution. As an established 
administrator and author and orator, Dr. Benjamin started his 
medical career serving our military at the Madigan Army Medical 
Center.
    Later he moved to Washington, D.C., where he served as 
chief of emergency medicine at the Water Reed Army Medical 
Center. After leaving the Army, he directed one of the busiest 
ambulance services in the nation here in the District of 
Columbia Fire Department. Prior to joining APHA, he was chief 
executive of the State of Maryland's Department of Health and 
Mental Hygiene, a cabinet-level agency.
    And we would like to welcome you, Dr. Benjamin. Thank you, 
and you have 5 minutes.

                 STATEMENT OF GEORGES BENJAMIN

    Dr. Benjamin. Good morning, Madam Chair and members of the 
committee. Let me first of all thank you very much for that 
resolution. We think that is a very, very important statement 
of the engagement of Congress in this issue of climate change.
    You know, each year the American Public Health Association 
creates policies--public policy statements--that we think are 
important for the public's health, and we actually put out our 
first public policy on climate change back in 1995. This past 
November we reaffirmed that policy, and many of the things in 
that policy are very consistent with both your statement, Madam 
Chair, as well as my colleagues--things my colleagues here at 
the table have said.
    Let me just point out four things, just in the interest of 
time. Number one, the fact that climate change is real and does 
affect our health, and most importantly, that there are certain 
populations that are more at risk--vulnerable populations. 
Number two, that we certainly support policies that are co-
beneficial, meaning that public health has an opportunity here 
to get twofers and threefers and really leverage public health 
action to try to improve the climate as well as our own human 
health.
    Number three, that we don't know a lot, or as much as we 
need to know, about the interrelationship between climate 
change and our health, and more importantly what we can do 
about it. And so there is really a need for an extraordinary 
research effort to find some of those things out. And then 
four, this requires enhancing the public health system with the 
skills, tools, and capacity to really address this very, very 
important role.
    Now, this week during National Public Health Week, what we 
are trying to do, of course, is to raise consciousness around 
this issue. We are asking all Americans to do five things.
    Number one, be prepared, particularly for these extreme 
weather events. This is consistent with all of the other 
preparedness activity that is occurring for a variety of 
threats to human health. Secondly, to think about traveling 
differently, which means folks like me need to drive less and 
walk more, bicycle more, do what we can.
    Thirdly, eat differently; find ways in which we can 
certainly eat more locally, do things so that both it improves 
our health as well as address the issue of climate change. That 
means eating more fruits and vegetables and less meat, and that 
is always a challenge for a guy like me.
    Greening your work, recycling. Even at the American Public 
Health Association we had an event. We brought someone in 
yesterday to talk to our staff about things that we can do to 
green our work; we actually have a Green Team at our office, 
which is trying to lead by example.
    And green your home: all the things that we talk about in 
terms of insulating your home, changing the bulbs to the 
compact fluorescent bulbs, reducing your use of wasteful 
products, recycling, et cetera, and conserving water.
    These are things that we think all Americans can do, and we 
are trying to encourage, this week, for all Americans to focus 
on this effort. I think the communication that we are trying to 
put out is trying to tell the American people that there are 
things that they can certainly do to address this problem.
    We also think there are some things, certainly, that 
Congress can do. Number one, continue to play a leading role in 
this area. We think that Congress and the administration both 
have an opportunity to play a very important role here. That 
includes authorizing a program at the Center for Disease 
Control and Prevention--a very specific program to address this 
issue, including the funding to support that.
    Funding the National Institutes of Health, particularly 
NIEHS, to begin doing some of the basic science research that 
they do. Better funding and support for the EPA as well. Using 
some of the vehicles that you already have, such as the to-be-
debated transportation bill, when it comes before you, the Farm 
bill, which is in front of you, and others.
    These are opportunities for you to leverage health into the 
discussion, and that way build capacity to do some of the 
things you heard Dr. Patz talk about to make this more of a 
holistic approach to improving our environment. And also 
provide funding for health impact assessments so that people 
are continually asking about, what is the health impact of the 
actions that we are going to do as a way of trying to both do 
adaptation and mitigation as we go forward?
    We think, in conclusion, that we certainly can't wait. This 
is a very, very important time in our nation's history. We 
think we ought to start now.
    I also, with your permission, would like to introduce a 
couple things for the record: both our white paper on climate 
change as well as a blueprint document that we have here. If we 
could possibly introduce those in the record. With that I 
will----
    Ms. Solis. Thank you. Without objection, we will include 
that in your testimony.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dr. Benjamin. Thank you very much. Madam Chair, I will pass 
the rest of my time.
    [The statement of Dr. Benjamin follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Thank you. Thank you very much, Dr. Benjamin. It 
is a pleasure working with you.
    Our next speaker is Dr. Dana Best; she represents the 
American Academy of Pediatrics. This is a nonprofit 
professional organization of 60,000 primary care pediatricians, 
pediatric medical sub-specialists, and pediatric surgical 
specialists, dedicated to health, safety, and the well-being of 
infants, children, adolescents, and young adults.
    Dr. Best is an assistant professor of pediatrics at the 
George Washington University School of Medicine and an 
attending physician at Children's National Medical Center in 
Washington, D.C. She serves also on the American Academy of 
Pediatrics Committee on Environmental Health, and in October 
2007, the committee published their report, ``Global Climate 
Change and Children's Health.''
    Thank you, Dr. Best, for being here. You can begin your 
testimony.

                     STATEMENT OF DANA BEST

    Dr. Best. Thank you, Madam Chairwoman.
    Good morning to all of you. I appreciate this opportunity 
to testify today on the impact of climate change on child 
health, and I am proud to represent the American Academy of 
Pediatrics in this regard.
    Human health is affected by the physical environment. As 
the climate changes, environmental hazards will change and 
often increase, and children are likely to suffer 
disproportionately from these changes. Anticipated health 
threats from climate change include extreme weather events and 
weather disasters, increases of infectious disease, and air 
pollution. Within all of these categories, children have 
increased vulnerability compared to other groups.
    The health consequences associated with extreme weather 
events include death, injury, infectious disease, and post-
traumatic mental health and behavior problems. Experiences with 
Hurricanes Katrina and Rita demonstrated the difficulties with 
tracking children's whereabouts, keeping children and 
caregivers together, and the special needs of hospitalized 
infants and children during and after major natural disasters.
    Vector-borne infections are affected by climate change as 
well. Both the hosts--for example, rodents, insects, and 
snails--and the pathogens--such as bacteria, viruses, and 
parasites--are sensitive to climactic variables such as 
temperature, humidity, and rainfall.
    For example, malaria is a climate-sensitive vector-borne 
illness to which children are particularly vulnerable. Because 
they have naive immunity, children experience 
disproportionately high levels of both sickness and death from 
malaria.
    Climate change is expanding the range of mosquitoes to 
higher altitudes and latitudes, and warmer temperatures speed 
the development of the parasite within the mosquito itself. 
Small children will be most affected by the expansion of the 
malarial zones and the success or failure of our response to 
those changes.
    Children are especially vulnerable to both short-term 
illness and long-term damage from air pollution. Children's 
lungs are developing and growing; they breathe faster than 
adults and they spend more time outdoors in vigorous physical 
activity.
    Formation of ozone, in particular, is known to increase 
with increasing temperatures. Children who are active in 
outdoor sports in communities with high ozone are at increased 
risk of developing asthma, which has been well documented.
    Rates of pre-term birth, low birth-weight, and infant 
mortality are increased in communities with high levels of 
particulate air pollution. Some investigators have argued that 
part of the global increase in childhood asthma can be 
explained by increased exposure to allergens in the air driven 
by climate change; those are allergens like pollen, as 
previously mentioned.
    For all organisms there exists a range of ideal 
temperatures, above and below which sickness and death 
increase. Humans are no exception. As temperatures increase, 
the frequency of heat waves increase.
    Children spend more time outside, often playing sports in 
the heat of the afternoon, which puts them at increased risk of 
heatstroke and heat exhaustion. Outdoor time during hot weather 
may also put children at increased risk of ultraviolet 
radiation-related skin damage, including skin cancer.
    Food availability may be affected and land and ocean food 
productivity patterns shift. Water availability may change and 
be reduced in some regions.
    Populations on the coasts may be forced to move because of 
rises in sea level, and massive migrations are conceivable, 
driven by abrupt climate change, natural disaster, or political 
instability, caused by increased demands for shrinking 
resources.
    World population is expected to grow by 50 percent, to 9 
billion people, by 2050, which would place additional stress on 
ecosystems and increase demand for energy, fresh water, and 
food. As these changes evolve, social and political 
institutions will need to respond with aggressive mitigation 
and adaptation strategies to preserve and protect public 
health, particularly for children.
    In addition to its recommendations to pediatricians for 
reducing their own energy demands and incorporating sustainable 
practices into their personal and professional lives, the 
American Academy of Pediatrics calls upon government at all 
levels, from the smallest municipalities to the national and 
international levels, to implement aggressive policies to halt 
contributions to climate change caused by humans, and mitigate 
their impact on children's health.
    First, policymakers should develop aggressive long-term 
policies to reduce the major contributing factors to global 
climate change. For example, the Environmental Protection 
Agency should set the national ambient air-quality standard for 
ozone at 0.060 parts per million.
    Our government should invest in prudent and vital 
preparations for our public health care systems, including 
immunization programs and disease prevalence reporting and 
tracking. And that means they have to be funded, too.
    Policymakers should give specific attention to the needs of 
children in emergency management and disaster response. 
Governments should support education and public awareness of 
the threats from climate change and their implications for 
public and children's health now and in the future. Governments 
should fund interdisciplinary research to develop, implement, 
and measure outcomes of innovative strategies to both mitigate 
and adapt to climate change, particularly those effects that 
have direct implications for children's health.
    In order that members may have access to the full 
information on this topic that we have prepared, I would like 
to ask that our statement--the American Academy of Pediatrics' 
policy statement and technical report, both called, ``Climate 
Change and Children's Health''--be included in the hearing 
record.
    In conclusion, the American Academy of Pediatrics commends 
you, Madam Chairwoman, for holding this hearing today to call 
attention to the potential impacts of global climate change on 
children's health. We look forward to working with Congress to 
prevent the adverse impacts on child health caused by global 
climate change, and plan for those we may be unable to avert.
    I appreciate this opportunity to testify. Thank you.
    [The statement of Dr. Best follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Thank you, and without objection we will receive 
your additional report information.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Our next speaker, and our last speaker, is Dr. 
Mark Jacobson. Dr. Mark Jacobson is director of the Atmosphere 
and Energy Program and professor of civil and environmental 
engineering at Stanford University.
    He has been at the forefront of developing models to better 
understand the effects of air pollutants on climate and air 
quality. In 2000, he discovered that black carbon, the main 
component of soot, may be the second leading cause of global 
warming, after carbon dioxide.
    In 2001, he developed the first global through urban scale 
air pollution weather climate model. His latest publication is 
titled, ``On the Causal Link Between Carbon Dioxide and Air 
Pollution Mortality.''
    Dr. Jacobson, welcome, and thank you for coming. You have 5 
minutes.

                   STATEMENT OF MARK JACOBSON

    Mr. Jacobson. Thank you, Madam Chair. I would like to thank 
the committee for inviting me to testify today.
    I will discuss scientific findings on the effects of carbon 
dioxide emitted during fossil fuel combustion on air pollution 
health in California, relative to the United States as a whole. 
I will then discuss how these findings compare with the two 
main assumptions made by Environmental Protection Agency 
administrator Stephen L. Johnson that formed the basis of his 
decision to deny California's request for a waiver of Clean Air 
Act preemption.
    On March 6, 2008, EPA Administrator Johnson published a 
summary of his decision to deny the California Air Resources 
Board request for a waiver. The decision was made on two 
grounds.
    First ``Greenhouse gas emissions from California cars are 
not a causal factor for local ozone levels any more than 
greenhouse gas emissions from other sources of greenhouse gas 
emissions in the world,'' he says. And second, ``While I find 
that the conditions related to global climate change in 
California are substantial, they are not sufficiently different 
from the conditions in the nation as a whole to justify 
separate state standards. These identified impacts are found to 
affect other parts of the United States, and therefore these 
effects are not sufficiently different compared to the nation 
as a whole.''
    These two issues are questions of scientific fact, which I 
will address here with results from a published study I 
performed, funded in part by the EPA, and subsequent analysis. 
The study began about 2 years ago, before the waiver issue 
became an issue, and before EPA funding commenced on the 
project.
    It was also the culmination of research on the effects of 
climate change on air pollution that I started 8 years ago and 
of research on the causes and effects of air pollution that I 
started 18 years ago. I first examined the effects of 
temperature alone, and separately, water vapor alone, on ozone 
using an exact solution to a set of several hundred chemical 
equations in isolation.
    The figure on the screen now shows the resulting ozone at 
low and high pollution levels. A comparison of the solid line, 
base temperature, with the dashed line, 1.8 degrees Fahrenheit 
or one degree Kelvin higher temperature, in the figure shows 
that the increase in temperature increases ozone when ozone is 
already high at all water vapor levels, but has little or no 
effect on ozone when ozone is low. The figure also shows that 
water vapor, the horizontal axis, independently increases ozone 
when ozone is high, but can slightly decrease ozone when ozone 
is low.
    This result implies immediately that higher water vapor--
sorry, higher temperatures and water vapor--should increase 
ozone where it is already high. It is also known that 
California has six of the 10 most polluted cities in the United 
States, with respect to ozone, including Los Angeles, Visalia, 
Bakersfield, Fresno, Merced, and Sacramento. So it is expected 
from this result alone that a warmer planet should increase 
ozone pollution in California more than in the U.S. as a whole.
    The next step was to evaluate whether carbon dioxide could 
trigger the temperature and water vapor changes sufficient to 
effect ozone when many other processes are considered 
simultaneously, and to evaluate effects in California. For 
this, a three-dimensional global model of the atmosphere that 
focused at high resolution over the United States was used.
    The next set of figures show differences in temperature, 
water vapor, and ozone over the United States due solely to 
historically emitted fossil fuel carbon dioxide from the 
simulation. Carbon dioxide increased near-surface temperatures 
and water vapor, and both sped back to increase near-surface 
ozone--the last figure shown--as expected from the previous 
analysis.
    Carbon dioxide similarly increased particles in populated 
areas for several reasons described in the written testimony. 
The changes in ozone particles and carcinogens were combined 
with population and health effects data to estimate that carbon 
dioxide increased the annual U.S. air pollution death rate by 
about 1,000 per 1.8 degree Fahrenheit, or one degree Kelvin, 
with about 40 percent of these increased deaths due to ozone.
    These annual additional deaths are occurring today, as 
historic temperatures are about 1.5 degrees Fahrenheit, or 0.85 
Kelvin, higher than in pre-industrial times. Of the additional 
deaths, more than 30 percent occurred in California, which has 
only 12 percent of the U.S. population. As such, the death rate 
per capita in California was over 2.5 times the national 
average death rate per capita due to carbon dioxide-induced air 
pollution.
    A simple extrapolation from U.S. to world population gives 
about 21,600--there is an error bar--deaths per year worldwide, 
per one degree Kelvin or 1.8 degree Fahrenheit, due to carbon 
dioxide. Carbon dioxide increased carcinogens as well, but the 
increase was relatively small.
    Next, let us examine the effects of controlling 
California's carbon dioxide as if its local emissions 
instantaneously mixed globally, which it does not. In such a 
case, controlling local carbon dioxide in California still 
reduces the air pollution-related death and illness rate in 
California at a rate 2.5 times greater, per capita, than it 
reduces the death rate in the U.S. as a whole.
    However, carbon dioxide emissions do not immediately mix 
globally. Instead, carbon dioxide levels in polluted cities are 
much higher than in the global average, as shown with data in 
the figure now on the screen. This is from Salt Lake City, 
Utah. Although the global background carbon dioxide is 
currently about 385 parts per million, the data indicate that a 
medium-sized city's downtown area can have an average of 420 to 
440 parts per million of carbon dioxide, and a peak over 500 
parts per million of carbon dioxide.
    The figure now on the screen--this is almost done here--
show computer simulations of carbon dioxide effects in 
California for a month of August, due solely to local carbon 
dioxide emissions. The elevated carbon dioxide over the urban 
areas is consistent with the expectations from the data.
    The increases in local carbon dioxide led to increases in 
water vapor and ozone over California. Since carbon dioxide 
emissions outside of the grids shown were not perturbed for the 
simulations, the simulations demonstrate that the effects on 
ozone found here were due solely to locally emitted carbon 
dioxide. In sum, locally emitted carbon dioxide is a 
fundamental causal factor of air pollution in California.
    The final slide here demonstrates compares modeled and 
measured parameters over each hour of a month and demonstrates 
the ability of the computer model used here to simulate the 
weather at specific times and locations.
    In conclusion, this analysis finds the following:
    Global warming due specifically to carbon dioxide currently 
increases the air pollution death rate of people in California 
more than it increases the death rate of people in the United 
States as a whole, relative to the respective population. The 
reason is that higher temperatures and water vapor due to 
carbon dioxide increased pollution the most where it is already 
high, and California has six of the 10 most polluted cities in 
the U.S. The deaths are currently occurring and will increase 
in the future.
    Controlling carbon dioxide from California will reduce the 
air pollution-related death rate and illness rate in California 
2.5 times faster than it will reduce the death rate of the U.S. 
as a whole.
    And finally, carbon dioxide levels in cities are higher 
than in the global atmosphere. Such elevated levels of 
CO<INF>2</INF> were found to increase ozone in California. As 
such, locally emitted carbon dioxide is a causal factor in 
increasing air pollution.
    These results contradict the main assumptions made by Mr. 
Johnson in his stated decision, namely, there is no difference 
in the impact of globally emitted carbon dioxide in California 
vs. the U.S. health, and locally emitted carbon dioxide does 
not affect California's air pollution any more than carbon 
dioxide-than anywhere else in the world. I am unaware of any 
scientific publication that supports either assumption.
    Thank you.
    [The statement of Mr. Jacobson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Solis. Thank you very much.
    We will now begin questioning, and I will begin with myself 
for a 5-minute round of questioning.
    Dr. Jacobson, thank you very much for being here. According 
to your presentation, you were stating, or underscoring, that 
there is a correlation between urban cities and the high 
incidence of emittance of carbon dioxide and the negative 
effects it has in different cities in California.
    Now, Los Angeles is very different from, say, Bakersfield 
or the Central Valley. Can you just touch on that, what some of 
those--you know, how that is occurring with that process there?
    Mr. Jacobson. Okay. In terms of carbon dioxide, well--one 
of the pollution in the Central Valley is due to particulate 
matter air pollution as well as ozone, and in Los Angeles it is 
also due to particulate matter and ozone, but sometimes 
different times of the year. Carbon dioxide is emitted more--
there is more carbon dioxide emitted in Los Angeles, so the 
CO<INF>2</INF> levels in Los Angeles will be higher.
    However, the Central Valley does receive--emit its own, and 
also receives a lot of carbon dioxide from the San Francisco 
Bay Area as well as coming from the south, from Los Angeles. 
And there are going to be--the Central Valley is more spread 
out, so you expect the ozone changes in particular will be over 
a larger area, but it has a quite lower population and 
concentration, in terms of its concentration compared to Los 
Angeles.
    The pollution in Los Angeles will be affected the most, I 
mean, the health impacts will be greater--expected to be 
greater--in Los Angeles because you have such a high population 
and the levels of ozone are generally higher in Los Angeles 
than in the Central Valley. And the pollution will get worse 
where the pollution is already bad.
    Ms. Solis. What will happen if we take no action?
    Mr. Jacobson. Well, right now, historically, temperatures 
have already risen due to carbon dioxide, and this is currently 
causing about, I would say, estimate a medium value of about 
800 additional deaths per year, compared to the background of 
about 50,000 deaths per year due to air pollution. The 
background air pollution death rate in the U.S. is 50,000 to 
100,000, and per one degree Celsius or 1.8 Fahrenheit increase 
in temperatures; that is estimated as about 1,000 additional 
deaths, with a range of 350 to 1,800 per year.
    So far, the temperatures have already risen about 80 
percent of this, and so deaths are already occurring. In the 
future they are expected to occur more. So the problem is 
already here; the deaths are already occurring.
    Ms. Solis. Do you agree with the decision that EPA made? Do 
you have any comment on that?
    Mr. Jacobson. No. I disagree with the decision for the 
reasons I cited in my testimony, that there is no basis in 
science that we know of right now for the two main reasons that 
were cited by Administrator Johnson.
    Those were assumptions that he made that--the two 
assumptions that he made were that first, CO<INF>2</INF> just 
mixes globally, there is no differential effect on health in 
California versus the U.S. as a whole, and there is no effect 
of local carbon dioxide on air pollution in California. Those 
assumptions were just those assumptions; they weren't based on 
any science that I am aware of.
    Ms. Solis. Were you aware of--if there were any scientific 
evidence that was put out prior to what your research told you, 
was there any information from EPA that you may have seen?
    Mr. Jacobson. No. I am sure there have been no studies, 
because the study I did, which was published on February 12, 
2008, is the first study to look at the effects of carbon 
dioxide specifically on air pollution, ozone, and particulate 
matter and carcinogens in the United States as a whole, and on 
public health. There have been no previous public studies at 
all.
    Ms. Solis. All right. Thank you.
    My next question is for Dr. Frumkin, and I apologize if I 
can't get to everyone. You all had very good testimony, and I 
want to thank you for that.
    But Dr. Frumkin, we have heard from your colleagues that 
there seems to be a need to increase funding in the area of 
global climate change and its relationship to health and 
children and the need to kind of fast-forward funding so that 
we can be prepared. In your opinion, what can we do to help 
provide more support for your particular office?
    Dr. Frumkin. We are doing what we can now, in terms of 
public health preparedness and prevention with respect to 
climate change. We have technical assistance underway, we have 
research programs in a very small way underway, we are building 
the science base, and so on.
    We recognize the possibility of doing more. Further public 
health activities would involve further research; we need to 
build our science base considerably. Technical assistance to 
state and local health departments would need to increase.
    Ms. Solis. Is your budget adequately funded to provide for 
these kinds of research developments that we need to undertake?
    Dr. Frumkin. As I said, we are doing everything we can 
within existing resources now. We do recognize the possibility 
and the opportunity of doing more.
    Ms. Solis. So you could use more financial support, funding 
for research, preparedness, yes or no?
    Dr. Frumkin. With further resources we would be able to do 
more.
    Ms. Solis. Okay. Very good.
    I think my time is up, but certainly we will come back and 
ask another round of questions so we can get to some more of 
you.
    I want to, at this time, recognize our next colleague here 
who has 5 minutes for questioning, and that is the Congressman, 
Mr. Walden, from Oregon.
    Mr. Walden. Thank you. Thank you, Madam Chair, and I 
appreciate the witnesses and your testimony, and I have been on 
this select committee--Congress, and I think you all provided 
some really superior testimony, especially compared to some we 
have had. I appreciate the detail that you have offered.
    Dr. Jacobson, I am curious: Aren't there already 
communities in California that have not met the clean air 
standards under federal law today, that are out of attainment?
    Mr. Jacobson. Yes, that is correct.
    Mr. Walden. And what effect does that have on public 
health? Have you studied that?
    Mr. Jacobson. Well, that is pretty well known to be a 
serious effect on public health, so I mentioned there are about 
50,000 to 100,000 people die each year in the United States due 
to air pollution, and a good portion die in California--
prematurely, that is--due to air pollution. And that is due to 
existing health problems due to mostly fossil fuel combustion.
    Mr. Walden. And have you studied what the health outcomes 
would be if California just met the existing clean air 
requirements and got those cities into attainment status?
    Mr. Jacobson. I can't say I can give you the--I haven't 
studied that specifically in terms of provide numbers for it. 
But I should point out that even if California were in 
attainment there would still be premature deaths, because with 
0.08 parts per million standard, that is still way above the 
health threshold for ozone pollution health effects, which is 
about 0.035 parts per million, or 35 parts per billion. So, the 
standard is 80 parts per billion, and the health effect 
threshold is 35 parts per billion. So even if you met the 
standard, you would still have health problems.
    Mr. Walden. What level are those cities at now that are not 
in attainment?
    Mr. Jacobson. Los Angeles can get up to 150, I think in 
the--right now, I mean, it used to, in the 1950s it would get 
up to 560 parts per billion, but that doesn't happen anymore.
    Mr. Walden. So 150 for L.A. right now, parts per----
    Mr. Jacobson. Parts per billion of ozone. And, well, I 
think it may even, some days it gets up to 200 parts per 
billion, which is a stage one----
    Mr. Walden. And the federal limit is supposed to be 80?
    Mr. Jacobson. Well, that is for 8 hours. The 1-hour 
standard is 120 parts per billion. These high levels are 
generally for a shorter period of time, so they might just be 
exceeding the 1-hour standard rather than the 8-hour standard.
    Mr. Walden. Okay. I wonder, as we look at the balance, how 
long would it take to get temperatures in the globe to actually 
come down? I mean, that depends on what all we may or may not 
do here, but I look at Europe--they have got a cap and trade 
system, and yet their carbon dioxide emissions actually went up 
1.1 percent last year, even with their framework in place.
    I am trying to figure out--I have read some data that it 
would be at least 50 to 100 years where you would see a trend 
line go the other direction. Is that what you are finding in 
your data?
    Mr. Jacobson. With carbon dioxide, the lifetime of carbon 
dioxide, which is the time it decreases to about 38 percent of 
the original value, is about 35 to 50 years, and so you can 
imagine over 35 years you will start to get some feedback. You 
will get down to--you will get a reduction of two-thirds, 
almost, not quite two-thirds, 60 percent.
    However, there are other chemicals that cause, like black 
carbon, for example--which is the main component of soot--which 
has a much shorter lifetime of a few weeks. So if you control 
that, you can actually get the feedbacks within one to 4 or 5 
years. And so if you control soot, that is kind of the fastest 
way to slow global warming; controlling methane is probably--
that has a faster feedback than carbon dioxide, and carbon 
dioxide is one of the longer-lived greenhouse gases, if not the 
longest.
    Mr. Walden. So, what could we do that would control soot 
most effectively?
    Mr. Jacobson. Well, aside, I mean, the shortest-term is 
diesel particle filters and off-road vehicles, construction 
equipment--equipment, but the next step is really to convert 
all the diesel to clean electric-type vehicles eventually, or 
hydrogen fuel cell vehicles powered by clean, renewable----
    Mr. Walden. So, I understand that in Europe they have 
always used more diesel----
    Mr. Jacobson. Yes.
    Mr. Walden [continuing]. In their vehicles than we do, 
which is part of why they get higher mileage. But they have 
also, subsequently, ended up with more premature deaths because 
of the added pollution in the air. Is that because of the soot?
    Mr. Jacobson. Correct. That is one of the reasons. Their 
death rate--while the U.S. is 50,000 to 100,000, Europe is 
maybe 300,000 to 350,000 per year, and a lot of that is due to 
the fact that they have, like 40 or 50 percent of their cars 
are diesel, putting out particles. So there is a lot more 
particle pollution in Europe, and particles are the main 
component of air pollution health problems.
    Mr. Walden. One final question for each of you, perhaps, if 
there is time. My understanding is that under some of the cap 
and trade provisions like the Warner-Lieberman bill--I have 
talked to some power companies that rely a lot on coal for 
production of electricity, and they indicate that their cost of 
power would go 4.8 percent to 11.5 percent, or more than 
double.
    When we think about health issues, I think about heating 
for elderly in the winter and cooling in the summer in the 
hotter climates. Have any of you studied the effects of 
increased energy prices on health care, especially among either 
the young or the elderly, if you more than doubled the 
electricity cost in the country?
    Fifty-two percent of our power comes from coal, if that is 
what the model shows when you run it through, that it is a two 
and a half times increase in electricity. I am wondering, have 
we looked at that, too, as we look long range?
    Dr. Frumkin.
    Dr. Frumkin. We haven't looked at that question at the CDC, 
but I would be happy to look for information on that and get 
back to you.
    Mr. Walden. Would you?
    Dr. Frumkin. Yes, sir.
    Mr. Walden. That would be helpful.
    Dr. Benjamin, anything from----
    Dr. Benjamin. No, we haven't, although if we are simply 
looking at cost, I think the thing we would want to put in the 
equation is the cost of health care, which would offset some of 
the fiscal dollars.
    Mr. Walden. Yes. I want to look at all the costs and the 
effects. Because I know we hear anecdotally when there is a 
huge heat wave the number of people that die in their homes 
because they don't have adequate air conditioning. And then 
when it is really cold, we hear about those who freeze and 
are--you see the pictures on television every winter of people 
bundled up, especially seniors. So I am just trying to figure 
out all of these input costs, and certainly the tradeoffs----
    Dr. Benjamin. We would love to look at the health care 
costs----
    Mr. Walden. Yes.
    Dr. Benjamin [continuing]. Not just the deaths, but the 
people----
    Mr. Walden. Sure.
    Dr. Best or----
    Dr. Best. The impacts of these extreme temperatures are 
very real for children. In terms of cost, that is not a 
calculation that the Academy has a stand on, nor do we do 
research. But we do know that there are groups who have done 
this, and we will be happy to report on that.
    Mr. Walden. Thank you.
    Dr. Patz. I work with energy policy experts in our Center, 
and a couple points that they have told me is that the 
competitive price of renewables is coming way down; wind power 
is becoming competitive. But moreover, I would like to point 
out, too, historically the arguments against the Clean Air Act, 
where the argument was, ``This is way too expensive. It is 
going to cost our economy; it is going to hurt us.'' And there 
were major concerns.
    And once the Clean Air Act was implemented, there were some 
analyses conducted that found that, by far, the benefits, 
especially health benefits and environmental benefits--but 
especially health benefits--made the Clean Air Act much 
favorable. In fact, the concern of the cost was unwarranted.
    Mr. Walden. So you don't think there is any concern with a, 
perhaps, two and a half-fold increase in cost of electricity 
produced from coal? That that won't have any health effect or 
any effect on the economy?
    Dr. Patz. Well, I think that is a great research question.
    Mr. Walden. Right.
    Dr. Patz. I think that the argument about economy versus 
environmental protection is a false argument.
    Mr. Walden. I am not making that argument; I am trying to 
find out----
    Ms. Solis. Time is way over, and I thank you. But we will 
have another round of questioning. I am going to excuse myself; 
I have to go vote in another subcommittee, and I am going to 
turn the gavel over to Congressman Inslee for his 5 minutes of 
questioning.
    Mr. Inslee [presiding]. Thank you. Dr. Jacobson I think has 
been too modest here. I think he is actually the author of a 
paper called, ``A Renewable Energy Solution to Global 
Warming,'' which talks about the electrification of our 
transportation system, and it causes significant optimism. I 
will share that with Mr. Walden; he might find it interesting.
    Mr. Walden. I would love to see it.
    Mr. Inslee. I will do that. Do you want to make any 
comments about that at all?
    Mr. Jacobson. Sure. I am happy to. So, we have looked at, 
what is the possibility of converting the entire vehicle fleet 
in the United States to electric vehicles powered by renewable 
energy, primarily wind and solar--a combination, actually, of 
wind, solar, geothermal, hydroelectric, and tidal wave power. 
And, well, one analysis we focused primarily on wind and looked 
at, well, how many wind turbines would we need to power the 
entire vehicle fleet?
    And it turned out to be, with infused 5-megawatt, which are 
large turbines that are currently existing in Europe--they are 
not in the United States right now, but they are manufactured 
by a company--if you put them in locations where the wind speed 
is between seven and a half and eight and a half meters per 
second on the annual average, then it turns out you would need 
between 70,000 and 120,000 5-megawatt wind turbines to power 
the entire U.S. vehicle fleet with electric vehicles. And part 
of this is because electric vehicles are so efficient--compared 
to internal combustion they are about four to five times more 
efficient--so you need less energy, basically, to run them.
    But there is plenty of wind to actually do this. By the 
way, this number--70,000 to 120,000--that is less than the 
300,000 airplanes that were produced in World War II over a 
period of 7 years, most of those in the last 3 years. And the 
space you need for this is not that great. It turns out, well, 
just for the turbine spacing--you need to separate them by a 
certain distance so they don't interfere with each other--but 
for this it is about 0.5 percent of the United States; it could 
be a lot of it offshore.
    But that compares to, if you wanted to do the same thing 
with ethanol-fueled vehicles you would need about 15 percent of 
the entire United States, which is 30 times more land area, or 
even cellulosic ethanol would be 20 times more land area for 
that than doing it with wind. And the actual land area you 
would need for the turbine spacing touching the ground is 
really only two square kilometers, because they can use--for 
all these turbines, because they are just poles in the ground--
you could use all the land underneath for farming and ranching 
and open space. And a lot of this could also go offshore, so it 
doesn't actually have to go over land.
    Mr. Inslee. Doctor, I have got to make sure--I have got 
another question. I was really heartened by your research, 
because it confirms sort of what I believed, and there are a 
couple books that talk about that theory out there, one called, 
``Earth: The Sequel,'' which is the typical--another one is 
called, ``Apollo's Fire.'' And they both are optimistic 
visions, and I appreciate your research on that, and I will try 
to share with my colleagues.
    Dr. Frumkin, the U.S. Supreme Court decision in 
Massachusetts v. EPA required the EPA to determine whether 
greenhouse gas emissions can be reasonably anticipated to 
endanger public health and welfare. Despite, apparently, EPA's 
staff's finding that it did, the administration refused to sign 
off on that endangerment decision. I just want to ask you, 
based on your considerable expertise in public health, do you 
believe that greenhouse gas emissions cause or contribute to 
air pollution, which may reasonably be anticipated to endanger 
public health?
    Dr. Frumkin. Thank you for the question. I recognize that 
there are legal and regulatory dimensions to the question. CDC 
doesn't have a position on those issues, nor does it have a 
position on any of EPA's regulatory decisions. What I can do is 
speak to the public health science. The science is clear that 
carbon dioxide does contribute to climate change, and as I and 
others have testified here today, climate change does pose a 
number of public health challenges.
    Mr. Inslee. I kind of take that as a yes, that it does have 
the capacity to endanger public health, but, you know, is that 
a fair statement?
    Dr. Frumkin. I think I would let my words speak for 
themselves.
    Mr. Inslee. I think we get the message; I wish the White 
House did.
    I wanted to read a quote, actually, which was one of the--
if you believe in irony, this is one of the great ironies. In 
turning down California's request for regulation of greenhouse 
gases, the administrator of the EPA said ``Severe heat waves 
are projected to intensify in magnitude and duration over the 
portions of the United States where these events already occur, 
with likely increases in mortality and morbidity, especially 
among elderly, young, and frail. Ranges of vector-borne and 
tick-borne diseases in North America may expand both modulation 
by public health measures and other factors.''
    Would anyone disagree with the position that if you 
conclude that, by necessity you have concluded that carbon 
dioxide has the capacity or capability to endanger public 
health? Does anybody disagree with that on this panel? If you 
were--that, I will take that no one disagrees with that.
    Next question: As public health experts, we have been 
struggling with how we get America to move on global warming. 
You have seen the federal government largely acting, in the 
last 7 years under this administration, much more the ostrich 
with the head in the sand and the tail feathers in the air 
rather than the American eagle, and we need to change that.
    As public health experts, can you help us on what you think 
the best messaging is to the American people on trying to 
tackle this beast? You know, you have been successful in 
seatbelts, in changing behaviors, and you have had some success 
with tobacco usage. What messaging works to help move America 
in that direction?
    Dr. Benjamin. Mr. Inslee, I think, just from the American 
public health perspective, we need to change the message from, 
``The end of the world, there is nothing we can do,'' to, 
``This is a very significant problem, and every one of us can 
do something and implement a way to make a big difference.''
    I think that what often happens with a big problem like 
this, people get overwhelmed. And so, my perspective of simply 
telling people again, you know, travel differently, do some 
things differently at home, do some things differently at work, 
and letting them know that every little bit helps, will make a 
big difference.
    Mr. Inslee. Dr. Patz.
    Dr. Patz. Yes. If I could just add, I think that the issue 
of co-benefits, that in fact this could be a great opportunity 
if we think about changing some of our energy policies, 
especially in the area of transportation--60 percent of 
Americans do not meet the minimum recommended level of 
exercise, and this is one where we have sort of designed 
unhealthy cities. And this is a great opportunity when we think 
about greening cities, reducing greenhouse gases and automobile 
traffic. We have a great opportunity to enhance personal 
fitness.
    Another point that I think is both locally, as Dr. Jacobson 
pointed out, regarding CO<INF>2</INF> emission affecting 
California, but also that, in fact, our CO<INF>2</INF> 
emissions do affect the world. And just like the argument of 
secondhand tobacco smoke, where what one individual does when 
he lights up a cigarette and that smoke affects someone else, 
this is actually a global problem as well, and that our energy 
emissions are, in fact, hurting other countries, not only our 
own. So I think that is a message as far as an ethical issue.
    Mr. Inslee. I appreciate it.
    Dr. Frumkin, did you have something?
    Dr. Frumkin. Yes, sir, just to let you know that the CDC 
has been holding a series of expert workshops on various 
aspects of climate change, and the most recent one was on 
health communication regarding climate change, precisely 
because we recognize the question that you just posed, that 
public health communication has been very successful in many 
domains; what can we learn from that to apply to climate change 
communication?
    We know, for example, that bad or threatening news is 
difficult for people to take, but if it is coupled with 
constructive recommendations about what you can do, it is much 
easier for people to accept that news.
    Mr. Inslee. Well, some of us believe--and I appreciate Dr. 
Benjamin's comment--that we need to switch from doom and gloom 
to a sense of a can-do, innovative, optimistic spirit of 
America. That is an American message, I believe, that will 
succeed here.
    I will now hear 5 minutes from Representative Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. I apologize for being 
late. Like everybody, we are all running between several 
hearings, but I didn't want to miss this for a number of 
reasons. And the primary reason is the panel; those of you here 
offer--great perspective on this issue. And I grew up in an all 
black neighborhood in Texas, and we lived a few yards away from 
the waste treatment--well, actually, it did not get the 
anticipated name of waste treatment plant until a few years 
ago. [Laughter.]
    But, you know, I also realize that the incidence of some 
diseases, most particularly asthma, is highest among African-
Americans. And when you look at where the waste treatment plant 
was, and also where the city dump was located, you see that 
that has got a 99.9 percent African-American community. And I 
know specifically Dr. Patz, you used the term ``disproportional 
vulnerability,'' and it caught my attention earlier.
    And is the climate change and environment placing at risk 
the poorest people, the people of color who live in areas where 
we have chosen, with some great intentionality, to locate these 
facilities that emit, I think at the least, unpleasant odors 
and maybe even some other particles that would be damaging?
    Dr. Patz. This is a very good point regarding the different 
portions of the population that would be most vulnerable to 
climate change. And what we are dealing with when we talk about 
climate change are extreme and environmental conditions, be it 
a heat wave, a flood, a drought, or severe storm.
    Certainly we know that it is the poor that are most at risk 
in heat waves, especially the poor elderly. As far as flooding, 
you know, people that live in flood plains would be more at 
risk. And when you deal with ozone pollution, it is true that 
African-Americans do have a higher rate of asthma.
    So there are certainly--when you, you know, when you look 
at Hurricane Katrina, which, you know, simply was a--you know, 
we don't know--I won't make any judgments about why it 
occurred, but when Hurricane Katrina hit, it really was the 
poor, and most African-Americans in New Orleans that simply did 
not have the means or the ability to get out of town and avoid 
that disaster.
    So I think to the extent, in this country, absolutely there 
are populations at risk that are primarily the poor; and if you 
look globally, it is the same situation. Compare a sea-level 
rise in Holland versus Bangladesh, and you can see that a 
population with very little capability to react is at more 
risk.
    Mr. Cleaver. Thank you.
    Dr. Benjamin, would you say that there are things in 
landfills that could become airborne that would do damage--
medical damage--to people who live nearby?
    Dr. Benjamin. Absolutely. Obviously there are lots of 
things dumped in landfills that are toxic. If you really look 
at it, there are probably four raw areas that 
disproportionately affect vulnerable communities, particularly 
minorities. One, more vulnerable to extreme weather events, 
much more lower baseline health status.
    Then you place people near toxic environments like that, 
and then they, as a community, the community capacity to 
recover is diminished. So all four of those things, including 
the toxic issue that you are concerned about, are measures that 
need to be----
    Mr. Cleaver. I have gone down to New Orleans twice--we have 
held hearings down there. The flood was one issue that was 
terrible and devastating; I had a son down there in college----
    The issue that I am concerned about more now than the flood 
is, when we went down there we all had to wear masks when we 
went into the Ninth Ward. There is a--I grew up in public 
housing--there is a stench down in New Orleans like nothing I 
have ever experienced in my life, and of course the landfill 
was washed into the Ninth Ward.
    And my fear is that we don't know the damage of Katrina 
right now, that it may not come into fruition for a few years 
down the road, but I cannot imagine that we are not going to 
have some prolonged damage to lungs and probably much more in 
the years to come. Do any of you have any comments on--my time 
is expired, but do any of you have any comments?
    Dr. Best. I second your concern, and I also want to 
emphasize that it is children who are having--reaping the 
permanent harm from these exposures, and because they have a 
longer shelf life, they will suffer those harms for longer 
periods of time than an adult who was exposed to the same 
event. So we need to consider children, especially, when we 
think about these kinds of disasters and environmental harm.
    Ms. Solis [presiding]. Thank you very much.
    We can go for another round of questioning if you would 
like, and I certainly would like to ask some questions.
    But I would like to go back to Dr. Frumkin, and just a 
basic question here: Do you believe that greenhouse gases do 
have an impact on health--an adverse effect on health?
    Dr. Frumkin. I think that was a question we addressed while 
you were out of the room, Madam Chair. What I mentioned was 
that that is a complex question with regulatory and legal 
dimensions, and the CDC doesn't have a position on the 
regulatory and legal dimensions of that question. As for the 
science, there is strong evidence that carbon dioxide is a 
greenhouse gas that contributes to climate change, and there is 
strong evidence that climate change threatens health in a 
number of ways.
    Ms. Solis. Have any studies in your department that you 
have been involved in indicated that?
    Dr. Frumkin. I am sorry, indicate----
    Ms. Solis. That there is a correlation, and in fact this is 
evidence.
    Dr. Frumkin. One example of research that we have done 
would be looking at heat waves, and characterizing the 
epidemiology of heat waves, identifying who is the most 
vulnerable and how the deaths and illnesses occur from heat 
waves. Heat waves are expected to become more common with 
climate change.
    Ms. Solis. So that is a yes. Okay. You had mentioned 
something earlier as well, in your opening statement and your 
testimony, alluding to differing views within the 
administration, and I wanted to ask you if you could, kind of, 
at least give me an idea what that means, what the difference 
is between your agency, OMB, and the administration. What 
differing views were you talking about?
    Dr. Frumkin. What I was referring to is that we have a 
considerable amount of work going on on climate change at the 
CDC; it is extensive. It is well represented on our Web site 
and in our publications, but I don't know that all of that work 
has been carefully vetted across the administration, so it 
isn't necessarily the case that all of our work has--represents 
a consensus across the administration.
    Ms. Solis. But they are given all that information from 
you, OMB, and the administration?
    Dr. Frumkin. I don't know and can't speak to the level of 
attention that all of our work has had.
    Ms. Solis. Okay. All right. Thank you. Thank you, Dr. 
Frumkin.
    I wanted to ask, Dr. Best, you talked extensively about 
children and public health prevention and preparedness, and you 
mentioned that we should really have more of an organized 
method here of preparing children for these negative health 
effects that are going on. Can you be specific and give me some 
idea of what we could do that currently isn't in existence that 
can help us prepare for that?
    Dr. Best. Well, we have talked in broad generalizations 
about some of the issues today. A good public health 
infrastructure that is supported and funded appropriately is 
key.
    In terms of children's health, we also need health 
insurance for children. We need to make sure that children have 
access to health care through appropriate placement of 
workforce.
    We also need to think about children when we think about 
cost-benefit calculations. The cost of an immediate--you know, 
the costs incurred by improving the quality of our air are not 
just borne by the industry that pollutes the air; they are also 
borne by the children throughout their lives.
    Ms. Solis. Have you seen any differences--we talked a 
little bit about disparities that exist between communities of 
color and the general population. Are you seeing any of that 
with respect to how negative health----
    Dr. Best. I see it every day. With my----
    Ms. Solis [continuing]. With respect to air pollution----
    Dr. Best. Yes. Yes, ma'am.
    Ms. Solis. And can you elaborate?
    Dr. Best. I serve the low-income minority population of 
Washington, DC every day in my clinical practice; those are the 
children that I care for. And they suffer asthma, adverse 
permanent harm to their lung function because of the air 
pollution effects in the city. And they have poor access to 
care because of the fact that Washington, DC is yet another 
example of an urban island where children aren't treated as 
well.
    Ms. Solis. Right. Okay.
    Dr. Patz, do you want to chime in?
    Dr. Patz. Yes. I would just like to make a comment about, 
you know, about the research and what is available, what is out 
there, what do we know, and what do we need to do. You know, 
Dr. Frumkin mentioned that the CDC is doing everything that it 
can because they understand how climate change is a very 
important public health issue.
    I have been doing climate change health research for about 
14 years, and have received some grants from the EPA, NOAA; 
these are not large programs. To date, I really don't think 
there has been much funding at CDC for preventing some of the 
health effects of climate change.
    There is an intention; they understand the problem. They 
are holding workshops. They want to do something, but I don't 
see funding at the CDC. I think their hands are tied when it 
really comes to serious protection of the American public from 
the health effects of climate change.
    Likewise, NIH has really not been funding climate change 
health research. They are now talking--they are actually 
meeting next week, and hopefully they will have some mandate to 
actually allocate funding to public health research.
    But I think that we really--you know, I have been applying 
for these grants, and--the CDC really has hardly any funding to 
support their efforts to protect us from climate change, and I 
think that is a huge need.
    Ms. Solis. Thank you very much.
    Dr. Jacobson, I want to thank you for your testimony, first 
of all, and just tell you that the area that I represent in 
California is one of the heavier-polluted communities. We have 
freeways that just transfer us across our communities there, 
and I have often wondered also, as my colleague Mr. Cleaver 
asked, about ambient air pollution and the cause and effect for 
our children, as was mentioned earlier, having so much activity 
outside and not being properly--or the folks that should be--
the gatekeepers should be somehow helping to try to provide 
more information in terms of safety for our children.
    Can you maybe touch on that?
    Mr. Jacobson. I assume it is Los Angeles?
    Ms. Solis. Yes. Los Angeles. East Los Angeles.
    Mr. Jacobson. Okay. Yes, living near a freeway is a 
dangerous place to live, because you have particles coming 
right from the tailpipe, and that is when the concentrations 
are the highest. Particles, by the way, are the most damaging 
component of air pollution and there is no threshold to the 
health problems due to particles. You can go down to almost 
zero, and you get health problems due to particles.
    And vehicles are emitting particles even though they are a 
lot--the emissions are much lower than they used to be. They 
are still emitting these particles, and they are pretty 
concentrated as they go downwind of the freeway, even, like 100 
meters, 500 meters, you know, even a kilometer down, you know, 
they will get diluted, but the concentrations are going to be 
highest near the freeway.
    And these particles--these are the ones emitted. Now, that 
doesn't mean other people aren't affected downwind, so there is 
this local air pollution right near the freeway. But then there 
are other types of particles that form in the atmosphere due to 
chemical reactions involving the sun and gases, and converting 
gases to particles, and there are also gases that--although 
ozone isn't emitted from a tailpipe, it is formed in the 
atmosphere.
    So actually, downwind in Los Angeles, particularly on the 
east side of Los Angeles because most of the emissions are on 
the west side--although there are a lot on the east side, but 
most of them are on the west side--and these emissions get 
transformed and moved by the wind to the east side, where the 
concentrations of the chemicals formed in the atmosphere build 
up the most. So people far downwind actually also have a big--
are affected by the air pollution significantly.
    So there is this local effect, where people near freeways 
have bad health effects----
    Ms. Solis. So it is compounded?
    Mr. Jacobson. Yes. Well, it is not--well, I would say if 
you are on the west side you are not getting so much of the 
secondary pollution----
    Ms. Solis. Right.
    Mr. Jacobson [continuing]. You are getting more of the 
primary pollution. If you are on the east side you get more of 
the secondary pollution, so it is----
    Ms. Solis. Where lower-income people tend to be living or 
working----
    Mr. Jacobson. Near the freeways, probably. So yes. So you 
are getting more of the primary pollution, but all populations 
are getting the secondary pollution, really, depending on--
because it just spreads out all over Los Angeles.
    Ms. Solis. And just a last comment on soot. Something that 
you didn't mention was marine vessels, and that is something 
that we are looking into. Have you done any research on that?
    Mr. Jacobson. Yes. It includes marine vessels and aircrafts 
in terms of their--because aircraft is another unregulated 
source of soot emissions, and marine vessels are, I guess I am 
not sure what the status of the regulation is, but they are 
pretty much unregulated on the global scale. And that is an 
area where you can get--especially in ports.
    I mean, when you are out to sea there is going to be some 
impact, but it is not going to affect the health as much as 
right near ports, if marine vessels are idling. I think in 
California there have been some recent laws to have them plug 
in--so that kind of stuff is a really good idea.
    Ms. Solis. Okay. My time is up, so we will go next to Mr. 
Walden for questioning.
    Mr. Walden. Thank you. Thank you, Madam Chair. I appreciate 
that.
    Dr. Jacobson, I am going to go back on this issue of wind 
turbines. I represent a 70,000 square mile district in eastern 
Oregon, home for the northwest, probably, to some of the most 
wind turbines in the area, with many more coming up online. And 
I know that it works well there because of the dams that allow 
us to have hydropower.
    There are some--even some on this committee--who would like 
to tear out some of those dams, and I don't know what the 
replacement power is, but it is going to have a bigger carbon 
footprint than hydro. But because the wind isn't firm energy, 
that becomes a bit of a problem. And I know the Bonneville 
Power Administration has told me there is a capacity to how 
much wind they can actually put on the grid.
    Are you aware of studies that give us some ideas, 
regionally, where we can put the wind? My understanding is in 
the Dakotas, actually, there is much more wind potential than 
other places. Have you looked at those infrastructure issues?
    Mr. Jacobson. Yes. So, two points. One, we did produce a 
world wind map, and it is actually the only map of the world's 
winds at 80 meters, which is the height of modern turbines. And 
that is publicly available; I would be happy to send it to you.
    Second, we have looked at combining different renewables 
together to firm the capacity, and having--the west coast is 
really well-suited for this because it has a lot of hydro, and 
the hydro is excellent for, yes, dealing with the intermittency 
and filling in gaps because you can turn it off within 15 or 20 
seconds in spinning reserve mode.
    But you can actually combine also solar, because a lot of 
places wind peaks at night and solar peaks during the day, so 
you can even combine wind and solar and balance the load better 
there, and use the hydro to fill in all the gaps from that. So 
we did a study for California--it was kind of a rough study; we 
are doing some more detailed study now--but we found that for 
2020, if we actually looked hour by hour, that if we combined 
these renewables together--solar, wind, hydroelectric, 
geothermal, those are the ones we looked at--you can get an 
exactly smooth output of supply without anything else.
    Mr. Walden. Wow.
    Mr. Jacobson. But, I mean, that was in California, and I 
assume it is the same in Oregon, too, and Washington.
    Mr. Walden. Yes, I would think so. The Geo-Heat Center at 
the Oregon Institute of Technology in Klamath Falls--they have 
spent a lot of time looking at geothermal potential and told me 
that there is enough in Oregon to produce two-thirds of our 
electricity needs----
    Mr. Jacobson. Yes.
    Mr. Walden [continuing]. With geothermal, because these new 
advances in the last year and a half--being able to produce 
electricity at a lower allows the delta between the cold water 
and the hot at lower, and we have got a 10-meg geothermal plant 
just sited in my district.
    So, the key that we will have out west is we have the 
potential; a lot of it rests on federal land. And there are few 
on this committee, or on the committees in charge of this 
Congress today, who will allow us to access those resources. 
And it seems to me if we are serious about dealing with some of 
these energy issues, you have to be able to site the wind where 
it is needed, where it can produce with wind turbines, within 
boundaries, I understand.
    We are starting to get pushback on that visual impact. You 
mentioned offshore. You know, Massachusetts, they didn't want 
it where they could see it. Nobody wants any of this stuff 
where they can see it, by the way.
    And in terms of geothermal, I think we are going to face 
some challenges to accessing that. I mean, have you looked at 
that?
    Mr. Jacobson. Yes. Well, geothermal is a baseload, so it 
doesn't really have the intermittency issues----
    Mr. Walden. That is great.
    Mr. Jacobson. Yes. It is a great baseload. I haven't looked 
at that with a lot of detail, but it is a good source.
    In terms of siting the wind turbines, keep in mind that the 
total area if you really want to solve this problem is pretty--
it is not a large amount of area you would need.
    Mr. Walden. Right.
    Mr. Jacobson. So the question is, do you want to look at 
the wind turbines, or would you rather look at a coal fire 
power plant? I mean, it is not really a--nobody wants to add 
anything; it is really a question of what you are replacing.
    Mr. Walden. Right.
    Mr. Jacobson. And so if you have a coal fire power plant 
that is, you know, emitting stuff that is hurting your children 
downwind, you know, you would think people would rather look at 
the wind turbines. There are about, I think it is like 20 or 25 
offshore wind proposals in the United States right now; and the 
only one you ever hear about is the one in Massachusetts, but 
in fact, all the other ones, they don't have this same 
problem----
    Mr. Walden. Good.
    Mr. Jacobson [continuing]. In terms of--well, I am not 
saying they don't have problems, but in terms of actually 
getting implemented. But they don't have as much public 
controversy as that one.
    Mr. Walden. Well, and I am real interested, too, in the 
notion of plug-in hybrids. I bought a Prius last July that will 
more than double my gas mileage here in Washington, and last 
month I bought a Ford Escape hybrid, and getting 66 percent 
better mileage than the SUV I used to have. I would love to be 
able to charge it up at night on the grid, but you can't do 
that yet.
    In terms of battery development and domestic investment, we 
have done that in various energy bills; we have put money out 
there to invest in new technology for battery life. What are 
you seeing on the scientific side of things? How far away are 
we from really making a leap forward on batteries?
    Mr. Jacobson. Well, Tesla rolled out their first pure 
electric vehicle on lithium-ion laptop batteries, and so they 
are starting to produce them. So they exist now; there are a 
very small number. I think they put out one--one of them is 
actually on the road now, and I think there are another----
    Mr. Walden. (OFF MIKE)
    Mr. Jacobson. So they do exist, and there are many electric 
vehicle companies following in the wings. And from what Tesla 
says, you know, these batteries a while. I mean, I have a Prius 
myself. I got it in 2001 or 2002, and I haven't had to change 
the battery. And that is not with these lithium-ion batteries; 
that is with the older version.
    So they last pretty long. The older ones even last pretty 
long, from my own personal experience. And the lithium-ion, 
from what they say, should also last quite a while as well. So 
I don't know a lot about the details of the battery industry, 
but I can say that I am pretty optimistic about it.
    But that is the idea, is to plug in your own home; so you 
have, maybe, solar panels on your roof, you have smart meters 
that control when you get the electricity, so that is another 
way to smooth out the supply of intermittent renewable energy. 
And in California, PG&E is doing that; they are developing 
smart meters so that they can control when you get your power 
if you plug in your car at night.
    So it is really a combination of all these renewables with 
a smart electric grid, and actually organizing the grid in such 
a way in the United States so that we can not only have--we 
know where the wind farms should go--but we have the 
transmission between them, because that is really the limiting 
factor in the expansion of wind, is transmission, and we need 
an organized transmission grid. And also, that reduces the 
intermittency too, if we connect two wind farms that are far 
apart enough, then you smooth out the supply, too. So there is 
a benefit--a financial and a wind benefit.
    Ms. Solis. Thank you, Dr. Jacobson. Thank you.
    Mr. Walden. Thank you, Dr. Jacobson. I appreciate it.
    Ms. Solis. Now I would like to recognize Mr. Cleaver for 
another round of questioning.
    Mr. Cleaver. Thank you, Madam Chair. Could I ask, if people 
leave the room and risk intellectual damage by not hearing 
everything that goes on here, if you would hold the door when 
you go out. It is creating sound pollution.
    The question that I would like each of you to answer is, we 
know the issues of challenge.
    We will start with you, Mr. Jacobson. What would you do if 
you were a member of Congress, in terms of legislation, that 
would have the greatest impact in reducing the health risks of 
the American public, particularly its children, as a result of 
climate change?
    Mr. Jacobson. I would do two things. One relates to 
providing better renewable energy sources, and the other 
relates to--if we go back to the issue I was discussing, which 
is the waiver issue, being able to allow states to actually 
control their emissions, and then that also is effectively the 
same thing, which allows them to try to find ways to reduce 
their carbon and cars, be it by a low fuel standard or some 
more renewable energy.
    But more specifically, having a national program, as I 
mentioned, for expanding renewable energy on a large scale--
because if you look at the individual states' portfolio 
standards, they are, you know, they have expansion of 
renewables to 20 percent, let us say, of their total 
electricity. But that is not enough; you need an 80 percent 
reduction in carbon to address climate change.
     So you need a huge infrastructure change that is much 
larger than anybody is proposing at state levels. And so to do 
this, you really need this kind of national, sort of Apollo-
like, program to go to true renewables, which are wind, solar, 
geothermal, hydroelectric, tidal wave powers. But in order for 
that to work, you need a better transmission system to 
interconnect these.
     So having kind of an organized transmission system with a 
large-scale renewable energy program would make a lot of these 
problems go away because--especially if you start using 
battery-electric vehicles instead of the, you know, fossil fuel 
vehicles, then you make a lot of these air pollution problems 
go away automatically with better technologies. But in the 
meantime, allowing states like California to control their own 
CO<INF>2</INF> has a similar effect, because other states then 
follow.
    California has been an example for 50 years, basically, 
since 1948, when the Los Angeles Air Pollution Control District 
started making regulations, and it is actually--the very first 
motor vehicle control act in the world was a California 1959 
Motor Vehicle Control Act from California. So you really need 
to have states control their pollution, and also to scan 
renewable energy.
     Mr. Cleaver. Thank you.
     I am going to ask that each of you would do a short 
response, because my time is running out.
     Thank you very much, Dr. Jacobson.
    Dr. Frumkin. Well, Dr. Jacobson spoke to energy and 
transportation policy. I am going to speak to public health 
actions that we need to take.
    These are the standard public health protection steps: We 
need surveillance and tracking, good data collection, so that 
we have a sense of where we are both on environmental risk 
factors and on health. We need public health preparedness 
planning, so that states and localities can forecast the 
problems that they may face and take steps to protect the 
public.
    We need research so that we better understand the health 
implications of climate change. We need good communication so 
that people understand the issue and the steps they can take.
     All of those are the standard tools in the public health 
toolbox and the steps--what we can do to promote those actions 
would go a long way toward helping us protect public health.
     Mr. Cleaver. Thank you.
     Dr. Benjamin.
     Dr. Benjamin. Let me concur with my former colleagues on 
what they said, particularly the comments from Dr. Frumkin 
about investing more in the public health infrastructure. Let 
me talk about two very specific things as well.
    One, I would like to see a program actually officially 
authorized within the Center for Disease Control and Prevention 
around climate change. And obviously, also, funded as well.
     Secondly, really paying a lot of attention to policy. 
There are a lot of things that often aren't thought of as 
health policy. Again, the farm bill, the transportation bill, 
lots of things that we do around adult environments that have 
huge health implications, and for Congress to think about 
health impact assessments in all of those pieces of 
legislation. And obviously we would be eager to help you as you 
think through that.
    Mr. Cleaver. Thank you.
    Dr. Best. And I would second all of my colleagues' 
comments. I would also urge a long-term force perspective, 
rather than short-term immediate gain.
    When we think about children, again, we think about how 
long they are going to be on the Earth, and we need to think 
about how an exposure or a catastrophe that they experience 
during childhood affects the rest of their lives. We also need 
to think in the micro-level as well, and think about how we, as 
individuals, can reduce, reuse, recycle, and think about how 
we, as employees and coworkers and patients in hospitals, how 
we can make sure that those principles are part of our daily 
lives.
     Dr. Patz. Yes. That is a great question. I think that 
climate change can influence so many different risks to health 
that have been outlined throughout the hearing. I think it is 
very important to Congress' understanding to integrate the 
nature of the health risks of climate change.
    So that will demand a concerted effort across both the 
public and private sector. Addressing climate change policy 
should include aspects of self-preparedness, as Dr. Frumkin has 
mentioned, and Dr. Georges Benjamin has mentioned, that we need 
to have specific targeted funding for CDC to address climate 
change.
    Urban planning is part of this issue. Natural resource 
utilization, as far as actual vulnerability to a population 
when experiencing extreme climates. So natural resources and 
energy policy; energy policy and public policy really should be 
linked.
    So it is a truly new type of challenge, and it is going to 
demand serious legislative measures, unlike many of the other 
health effects that we have studied in the past. I think this 
is truly one of the most, you know, serious broad-reaching 
issues that cannot just be put in a box and focused in 
isolation. Climate change touches on so many of these other 
areas that ultimately affect the health of our population.
     Mr. Cleaver. Thank you, Madam Chair.
    Ms. Solis. Thank you very much.
    I wanted to personally thank all of you for coming and 
providing us with your testimony, and for speaking before the 
select committee. It means a great deal to us that are working 
on this issue, and especially this topic for some of us is just 
so important.
    It is a priority for many of us, and as a member of the 
Energy and Commerce Committee that I sit on, and Health 
Subcommittee, this is something that I have been longing to see 
more discussion about. So, we don't just have to have it in the 
select committee, but it should be in other committees of 
similar jurisdictions.
    But I wanted to make one comment, and then I will go to 
each of you and ask you to give me a 1-minute kind of wrap-up 
of what we should take away from your discussion today. And one 
is, for me right now, I am often confounded that we are not 
able to get the research data that indicates that we are having 
adverse effects, chronic illnesses, and how that, then, is 
contiguous with many of the environmental--the particulate 
matter, the smog, the ozone--and where that is easily 
accessible for the public.
    It is great that we have the science and the research, but 
if it is not correlated or brought together in some format, the 
public and the voting public is not fully aware of what those 
implications are. We see it manifested years out, especially 
with children and our elderly. We talk about asthma; this is 
one example.
    But that is something that I know that I have been 
frustrated over for a number of years, given the proximity of 
where I live, in a part of southern California where the ozone, 
smog, water contaminants, many, many adverse contaminants that 
are affecting our population, that will have an impact for 
years to come. And we don't have a good thermometer, or gauge, 
on what we should be doing to turn that around.
    So anyway, that is my one cent, for what it is worth. And 
then I will go to Dr. Patz and give you each a minute to kind 
of give us something here on the committee that we can take 
away, that we should be thinking about.
    Dr. Patz. So we really, you know, we do understand that 
climate change does pose these risks, and we need to be 
prepared. We do need more research; we do need to understand 
the nature of these risks more.
    We are beginning to make some headway as far as looking at 
place-based, you know, location-based problems. And I think 
that that is where, you know, where climate will actually have 
an impact and where we can really look at one place and look at 
the vulnerability based on its natural resources, or be it Los 
Angeles, the basin, and there have been studies showing that 
heat waves may even triple in California, so these types of 
analysis.
    But I also think that we have brought in this issue of 
health impact assessment, which is more than just looking at 
adverse risks that we are used to studying, but to look at both 
the negative effects and potential positive effects from 
changes in policy. And this is where I think we really need to 
get a better handle of--that will get a better quantification 
of the true story when you change policy and you reduce 
greenhouse gases, for example, in an urban population.
    You know, the multiple co-benefits to air pollution 
reduction, increased fitness, and reduced greenhouse gases, it 
has got to be a comprehensive-type analysis to really get an 
understanding of assessing that policy intervention for climate 
change.
    Dr. Best. As a pediatrician--and as you know, I am here to 
represent children--I would urge you to consider children and 
children's health every time you make a decision, because what 
is good for children is good for the rest of us, it is good for 
the environment, it is good for our education system, it is 
good for business.
    We need to remember that children are here for longer than 
I am, or at least their potential life is longer than mine, and 
that everything we do that improves the climate, that improves 
our education system, that improves our health care system has 
a many-fold impact on their lives. And that includes public 
health infrastructure as well.
    Ms. Solis. Thank you. Thank you.
    Dr. Benjamin.
    Dr. Benjamin. Let me just state uncategorically that 
climate change is here and it has health effects. Number two, 
we can and should address it now. And number three, let me just 
focus very specifically on the area of vulnerable populations, 
because I know others will talk about the broader public health 
issues.
     And one, we need to begin looking at, very specifically, 
the science around how this affects these vulnerable 
populations. Number two, trying to engage them now in the 
conversation, and I use the word conversation very specifically 
so that we don't just talk to people, or talk at people, we 
actually engage in a two-way dialogue.
     And number three, engage them now so that we can begin to 
craft solutions that make sense for their world. Their world is 
different than the world that I may live in, the world that you 
may live in, depending on socioeconomic status, et cetera, or 
other capacities, and we need to very specifically engage them 
in their world for solutions.
    Ms. Solis. Thank you.
    Dr. Frumkin.
    Dr. Frumkin. Representative Solis, thank you very much, and 
thank your colleagues as well, on this committee, for shining a 
spotlight on this very important problem. Climate change is a 
major public health challenge. There is a lot we in the public 
health sector can do to tackle it.
    The conventional terms mitigation and adaptation correspond 
to what we in public health call prevention and preparedness, 
and those are standard public health efforts. We need better 
research so we understand the science better. We need 
preparedness planning, so that we can take steps to protect 
public health.
     We need to communicate effectively the things we learn and 
the recommendations we develop. As we do all of that, we need 
to focus on the most vulnerable among us: poor communities, 
communities of color, those with particular vulnerabilities, so 
that we can take special steps to be sure those communities are 
protected.
     We at CDC stand ready to work with other agencies, with 
state and local public health, with organizations across the 
health sector, and with partners in transportation, energy, and 
other sectors so that we can do the very best we can to protect 
public health.
    Thank you.
     Ms. Solis. Thank you. Thank you.
    Dr. Jacobson.
     Mr. Jacobson. Well, I think we--thank you very much for 
inviting me, again--I think we know that climate change is 
going to increase, and it does currently increase air pollution 
the most where the pollution is already the highest. And right 
now the pollution is highest in California, and so that would 
give a reason for California to be able to control its own air 
pollution.
    If we look more broadly at what are some solutions to 
climate change, then there are these large-scale renewable 
energy solutions that are feasible in terms of the resources 
available, if we just put our mind to it. I think it really 
requires kind of a focus on that issue, and part of the problem 
I have seen--the reason there hasn't been more of a focus on 
renewable energy solutions--is that a lot of the, not only the 
funding, but also the, just the talk, is really on solutions 
that are really less than official, from a climate or air 
pollution point of view.
    I speak specifically of, for example, bio-fuels, which 
there is really no demonstration that it actually improves 
climate or air pollution. There is this carbon sequestration, 
there is, you know, clean coal, other technologies that have 
been pushed by industries, which the science hasn't shown that 
these are actually proven benefits. So I think there is a good 
change of focus.
    Ms. Solis. Right. Thank you so much.
    That will conclude our hearing, and I want to thank the 
members that came this morning, and also our witnesses and to 
the audience. Hopefully this will be the first in a series of 
discussions we will have on the environment, climate change, 
and health care.
    So thank you very much. Thank you. This meeting is 
adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
